               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00242-160


Community Based Outpatient Clinic 

 and Primary Care Clinic Reviews 

                  at 

W.G. (Bill) Hefner VA Medical Center, 

      Salisbury, North Carolina 





May 27, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                               CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinic (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of March 24, 2014, at the
Charlotte, NC, CBOC which is under the oversight of the W.G. (Bill) Hefner VA Medical
Center and Veterans Integrated Service Network 6.

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care and Designated Women’s Health Provider reviews. However, we
made recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCCs:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCCs:

	   Staff document that medication reconciliation was completed at each episode of
     care where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Staff consistently provide written medication information that includes the
     fluoroquinolone.

	   Staff provide medication counseling/education as required.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–19, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections



VA OIG Office of Healthcare Inspections                                                          i
                            CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                              1
                           CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                   CBOC and PCC Reviews W.G. (Bill) Hefner VA Medical Center, Salisbury, NC



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Charlotte CBOC.
The table below shows the areas reviewed for this topic. The facility generally met
requirements. We made no recommendations.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                                  3
                                   CBOC and PCC Reviews W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


NM               Areas Reviewed (continued)                                 Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                                  4
                                   CBOC and PCC Reviews W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 14 (35 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 3 of 8 RN Care Managers did not
       received MI training within 12 months of           receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 6 of 27 RN Care Managers did
       received VHA National Center for Health            not receive health coaching training within 12
       Promotion and Disease Prevention-approved          months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                    5
                                   CBOC and PCC Reviews W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


2. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                  6
                                   CBOC and PCC Reviews W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 17 (44 percent) of 39 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that
       medications was provided at the end of the        13 (33 percent) of 39 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   16 (41 percent) of 39 patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.


Recommendations

3. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

4. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

5.   We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                     7
                                 CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                         Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                   8
                                                                     CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                                                                    Appendix A

                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                   Uniques4                                   Encounters4

                              Station                  CBOC
        Location     State               Locality5                   MH7        PC8       Other9       All        MH7        PC8       Other9       All
                                 #                      Size6
    Charlotte         NC       659GA      Urban      Very Large     5,571      20,426     21,464     23,442     35,627      64,300    113,690    213,617
    Winston-Salem     NC       659BY      Urban      Very Large     4,951      18,179     20,963     23,178     21,329      53,281     91,640    166,250
    Hickory           NC       659GB      Urban         Large       1,905      7,144       6,256      8,339      8,918      23,195     22,909     55,022




3
  Includes all CBOCs in operation before March 31, 2013. 

4
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    9
                              CBOC and PCC Reviews W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                                                                                 Tele-Health
         CBOC          Specialty Care Services11              Ancillary Services12
                                                                                                 Services13
    Charlotte                  Optometry                          Laboratory                  Tele Primary Care
                                Podiatry                           Radiology
                            Gastroenterology                       Audiology
                                 Urology                   Computer Tomography
                          Medicine Specialties                Electrocardiography
                              Dermatology                          Pharmacy
                               Cardiology                 Diabetic Retinal Screening
                                                                               14
                                 Surgery                       MOVE! Program
                            General Surgery               Pulmonary Function Test
                         Women's Cancer Care                        Nutrition
                               Pulmonary                            Chaplain
                               Nephrology                            VIST15
                             Rheumatology               Positron Emission Tomography
                               Neurology
                             Ophthalmology
                               Pain Clinic
    Winston-Salem              Optometry                           Laboratory                 Tele Primary Care
                                Podiatry                           Radiology
                              Dermatology                          Audiology
                            General Surgery                        Pharmacy
                         Ear, Nose and Throat              Diabetic Retinal Screening
                                 Surgery                            Nutrition
                             Ophthalmology                     MOVE! Program
                           Infectious Disease              Pulmonary Function Test
                               Neurology                         Diabetes Care
                         Women's Cancer Care                         VIST
                             Endocrinology                    Blind Rehabilitation
                          Medicine Specialties
    Hickory                    Optometry                           Laboratory                 Tele Primary Care
                              Dermatology                          Audiology
                          Medicine Specialties                     Pharmacy
                                                           Diabetic Retinal Screening
                                                               MOVE! Program
                                                                    Nutrition
 



10
   Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC.

11
   Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

12
   Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

13
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

15
   The Visual Impairment Services Team (VIST) is a group of case managers that coordinate services for severely

disabled and visually impaired Veterans and active duty service members. 


VA OIG Office of Healthcare Inspections                                                                          10
                                                                     CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                                                                    Appendix B


                                                         PACT Compass Metrics





                                                                                                                                                            
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.
VA OIG Office of Healthcare Inspections                                                                                                               11
                                                                       CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.



VA OIG Office of Healthcare Inspections                                                                                                                    12
                                                                      CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                      CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                       Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                   Memorandum


           Date:       May 1, 2014

          From:        Director, VA Mid-Atlantic Healthcare Network (10N6)

       Subject: 	      CBOC and PCC Reviews of the W.G. (Bill) Hefner VA
                       Medical Center, Salisbury, NC

              To:      Director, Atlanta Office of Healthcare Inspections (54AT)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)



       1. The attached subject report is forwarded for your review and further
          action. I reviewed the response of the W. G. (Bill) Hefner VA Medical
          Center (VAMC), Salisbury, NC, and concur with the facility’s
          recommendations.

       2. If you have further questions, please contact Lisa Shear, VISN 6 QMO,
          at (919) 956-5541.



       /es/

       DANIEL F. HOFFMANN, FACHE




VA OIG Office of Healthcare Inspections                                                         15
                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       April 28, 2014

          From:        Director, W.G. (Bill) Hefner VA Medical Center (659/00)

       Subject:        CBOC and PCC Reviews of the W.G. (Bill) Hefner VA
                       Medical Center, Salisbury, NC

             To:       Director, VA Mid-Atlantic Healthcare Network (10N6)



       1. I have reviewed the draft report of the Office of Inspector General and I
          concur with the recommendations.
       2. I have included my response in the attached Director’s Comments.
       3. Please contact me if you have any questions or comments.



       /es/ 

       Kaye Green FACHE 

       Director, W. G. (Bill) Hefner VA Medical Center (659/00) 





VA OIG Office of Healthcare Inspections                                                         16
                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: Completed 12/17/13

Facility response: The facility implemented a new clinical reminder in Dec 2013 that
ensures that patients with a positive alcohol screen receive a complete diagnostic
assessment. Staff was educated on the new clinical reminder and began using it in
January 2013. At least 120 chart audits have been completed a month for the past
three months and the facility has been at least 90% compliant each of those months.
Audits will continue to be completed until closed by the OIG. Audit reports are reported
monthly to the Clinical Executive Board for ongoing oversight.

Recommendation 2. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: 6/6/14

Facility response: The facilities began offering more frequent training opportunities for
motivational interviewing and health coaching training and strengthened the tracking
mechanism to ensure RN Care Managers complete the training within 12 months of
appointment to PACT. 100% of RN Care Managers have completed the MI training as
of 4/16/14. 97.3% of RN Care Managers have completed the health coaching training as
of 4/16/14. The rest of the RN Care Managers are scheduled to complete health
coaching training in May 2014. The Chief Nurse of Primary Care will randomly audit the
training records of RN Care Managers to ensure training is completed within 12 months
of appointment to PACT. Results will be reported to the Nursing Executive Board for
ongoing oversight.

Recommendation 3.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur


VA OIG Office of Healthcare Inspections                                                         17
                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Target date for completion: 4/22/14

Facility response: The Chief of Staff Office reeducated providers that medication
reconciliation must be completed at all outpatient visits per MCM 659-119-5 Medication
Reconciliation. A sample of at least 30 electronic health records will be reviewed for
presence of documentation that medication reconciliation occurred at each episode of
care where fluoroquinolones were administered, prescribed, or modified. At least 30
electronic health records, from 30 unique patients, will be selected at random each
month to ensure at least 90% compliance with documentation requirements. Results of
the audit will be reported to the Clinical Executive Board and to the Executive
Leadership Board for ongoing oversight.

Recommendation 4.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: 4/22/14

Facility response: The prescriber will provide written medication information for all
outpatients utilizing the Medication Reconciliation Note, which contains a medication list
that includes the Fluoroquinolones when one is prescribed. In addition, Pharmacy
Service will provide a printed copy of an FDA Medication Guide, which informs the
patient in regards to what Fluoroquinolones are used for, how the medication should be
taken with respect to food and other medications, as well as any associated precautions
(i.e., potential drug-drug or drug food interactions, side effects, adverse events, and
Black Box Warnings). A sample of at least 30 electronic health records will be reviewed
for presence of documentation that written medication information was given where
fluoroquinolones were administered, prescribed, or modified. At least 30 electronic
health records, from 30 unique patients, will be selected at random each month to
ensure at least 90% compliance with providing written medication information for
fluoroquinolones. Results of the audit will be reported to the Clinical Executive Board
and to the Executive Leadership Board for ongoing oversight.

Recommendation 5.           We recommended                  that   staff   provide    medication
counseling/education as required.

Concur

Target date for completion: 4/22/14

Facility response: The prescriber will provide the necessary medication
education/counseling for all patients, along with a Medication Reconciliation Note, which
will document that the education/counseling has occurred. Pharmacy Service will
provide a printed copy of a FDA Medication Guide, which informs the patient in regards
to what Fluoroquinolones are used for, how the medication should be taken with respect
to food and other medications, as well as any associated precautions (i.e., potential
drug-drug or drug food interactions, side effects, adverse events, and Black Box


VA OIG Office of Healthcare Inspections                                                         18
                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC


Warnings). A sample of at least 30 electronic health records will be reviewed for
presence of documentation that written medication information was given and
medication education was completed where fluoroquinolones were administered,
prescribed, or modified. At least 30 electronic health records, from 30 unique patients,
will be selected at random each month to ensure at least 90% compliance with patient
medication education/counseling requirements. Results of the audit will be reported to
the Clinical Executive Board and to the Executive Leadership Board for ongoing
oversight.




VA OIG Office of Healthcare Inspections                                                         19
                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Tishanna McCutchen, ARNP, MSN, Team Leader
Contributors
Other                   Lin Clegg, PhD
Contributors            Sheyla Desir, RN, MSN
                        Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Toni Woodard, BS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         20
                        CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                       Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Mid-Atlantic Healthcare Network (10N6)
Director, W.G. (Bill) Hefner VA Medical Center (659/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Burr, Kay R. Hagan
U.S. House of Representatives: Virginia Foxx


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         21
                            CBOC and PCC Reviews at W.G. (Bill) Hefner VA Medical Center, Salisbury, NC
                                                                                           Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
